Audit Report




OIG-11-025
Management Letter for Fiscal Year 2010 Audit of the
Community Development Financial Institutions Fund’s Financial
Statements


November 15, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 15, 2010


            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Management Letter for Fiscal Year 2010 Audit of the
                                   Community Development Financial Institutions Fund’s
                                   Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Community Development Financial Institutions Fund’s (CDFI) Fiscal
            Year 2010 financial statements. Under a contract monitored by the Office of
            Inspector General, KPMG LLP (KPMG), an independent certified public accounting
            firm, performed an audit of CDFI’s financial statements as of September 30, 2010,
            and for the year then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as amended; and the GAO/PCIE
            Financial Audit Manual.

            As part of its audit, KPMG issued and is responsible for the accompanying
            management letter that discusses matters involving internal control over financial
            reporting that were identified during the audit, but were not required to be included
            in the auditors’ reports.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Catherine Yi, Manager, Financial Audits, at
            (202) 927-5591.

            Attachment
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




November 10, 2010


Inspector General
U.S. Department of Treasury
740 15th Street NW
Washington, DC

Director
Community Development Financial Institutions Fund
601 13th Street NW
Washington, DC

In planning and performing our audit of the financial statements of the Community Development
Financial Institutions Fund (CDFI Fund), as of and for the year ended September 30, 2010, in
accordance with auditing standards generally accepted in the United States of America, we
considered the CDFI Fund’s internal control over financial reporting (internal control) as a basis
for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements but not for the purpose of expressing an opinion on the effectiveness of the CDFI
Fund’s internal control. Accordingly, we do not express an opinion on the effectiveness of the
CDFI Fund’s internal control.
During our audit we noted certain matters involving internal control and other operational
matters that are presented for your consideration. These comments and recommendations, all of
which have been discussed with the appropriate members of management, are intended to
improve internal control or result in other operating efficiencies and are summarized in the
attached Appendix A.
The CDFI Fund’s written response to our comments and recommendations is presented in
Appendix A and has not been subjected to the auditing procedures applied in the audit of the
financial statements and, accordingly, we express no opinion on it.
In addition, we identified certain deficiencies in internal control that we consider to be a
significant deficiency, and communicated it in writing to management and those charged with
governance in our Independent Auditors’ Report on Internal Control Over Financial Reporting
dated November 10, 2010.
Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that
may exist. We aim, however, to use our knowledge of the CDFI Fund’s organization gained
during our work to make comments and suggestions that we hope will be useful to you.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
November 10, 2010
Page 2 of 2




We would be pleased to discuss these comments and recommendations with you at any time.
This communication is intended solely for the information and use of the addressees, OMB, the
U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
should not be used by anyone other than these specified parties.
Very truly yours,
                                                                                     Appendix A




Lack of efficiencies

The Departmental Offices - Office of Financial Management (OFM) performs the functions and
activities typically performed by the Office of the Chief Financial Officer on behalf of the
Community Development Financial Institutions Fund (CDFI Fund). During our review of loans
receivable and investments, we noted that certain offices in the Fund (e.g. program office) were
performing similar tasks as OFM for different purposes. We also noted that the CDFI Fund
awarded grants to investees and borrowers without comprehensively considering the impact of
such activity on the CDFI Fund’s valuation of the loans receivable or investment balances.
Specifically, we noted the program office was performing a ratio analysis using information
from borrowers’ financial statements, and OFM was also performing a similar ratio analysis for
determining the loan allowance.

Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for
Internal Control, prescribes the expectation of management and the responsibility of managers
for the quality and timeliness of program performance. Management controls are the
organization policies and procedures used to reasonably ensure that (i) programs achieve their
intended results; (ii) resources are used consistent with agency mission; (iii) programs and
resources are protected from waste, fraud, and mismanagement; (iv) laws and regulations are
followed; and (v) reliable and timely information is obtained, maintained, reported and used for
decision making.

The Fund’s management and staff do not routinely utilize work performed by other offices and
operational subdivision within the CDFI Fund.

The Fund may have overlapping tasks between OFM and the CDFI Fund which could cause
inefficiencies and potentially contradicting information.

Recommendations:

We recommend that management of the CDFI Fund:

1   Explore sharing similar data prepared by different groups, e.g. CCME, OFM, Programs, etc.
    so that such data can may be streamlined and not recreated, thus providing a potential benefit
    of higher quality and data standardization.
2   Develop and implement formal channels of communication (i.e. points of contact, regular
    discussions, etc.) to ensure that information is communicated and shared across relevant
    functions within the CDFI Fund including OFM.


Management’s Response:
The CDFI Fund concurs with the recommendation to explore further sharing of data between groups.
                                                                                     Appendix A




During FY2010, the CDFI Fund implemented detailed loan modification and loan allowance
calculation processes which greatly improved past analyses in both of these areas. OFM will expand
upon these improvements by working with Program to streamline and standardize the loan
modification and loan allowance analysis processes as of February 28, 2011 to take advantage of
synergies between processes.

The CDFI Fund also concurs with the recommendation to develop and implement additional formal
channels of communication across relevant functions. During FY20 1 0 many improvements were
made in this area including: monthly finance meetings involving OFM, CCME, Program and CDFI
management, formal monthly reviews and discussions of the loan and investment schedules, and
joint analyses of administrative work-outs. The action plan discussed in NFR 2010-CDFI-02 to
implement a procedure to distribute, on a monthly basis beginning January 31, 2011, a cumulative
list of awards made to investees will also increase data sharing between groups and further enhance
formal sharing of information.


Improvements needed in the submission of the Management Discussion and Analysis

The CDFI Fund’s Management Discussions and Analysis (MD&A) titled Fund Overview,
Program Discussion and Analysis, and Status of Financial Management sections were not
completed in a timely manner. Specifically, after several deferred delivery dates we received a
partial draft on October 29, 2010 with significant pending, missing, and erroneous content. For
example, pending content included Allocation of CDFI Fund Funding, Sources of Funding,
Description of the CDFI Fund’s Financial Management System, FY 2010 Financial
Management Initiatives, Management Responsibilities, Limitations of the Financial Statements,
Analysis of Financial Position and Results of Operations. Several of the completed sections
provided were not updated for FY 2010 information. As an example of erroneous or missing
data, under the “Certified CDFIs” section, the number of FY 2010 certified CDFIs disclosed
matched the number in a previous section for the 2009 certified CDFIs; the chart under FY 2010
Awards for TA awards did not include the 2010 awards; the chart of Number of Certified
Community Development Entities at Year End in the “New Markets Tax Credit Program”
section did not include 2010 data and the number disclosed in the preceding paragraph was also
not updated for the 2010 CDEs; and the “NMTC Activities to Date” referred to tables and charts
“below” that were not included. In addition, the draft stated, “Through the Capital Magnet Fund
(CMF), in FY 2010 the CDFI Fund provided $80 million in competitively awarded grants…”
when the grants were not awarded until October 14, 2010 which is in FY 2011. We also noted
that certain data communicated to the Department of Treasury for inclusion in the Department of
Treasury consolidated performance and accountability report was inaccurate and inconsistent
with the CDFI Fund’s activity for FY2010.
                                                                                      Appendix A




The Office of Management and Budget’s (OMB) Circular No. A-136, Financial Reporting
Requirements, as revised states, “Agencies and Government Corporations shall submit their
Performance and Accountability Reports (PARs), Agency Financial Reports (AFRs), or Annual
Management Reports (as described in the Government Corporations Control Act) to OMB and
the Congress no later than 45 calendar days after the end of the fiscal year. (For those agencies
or corporations with a September 30 fiscal year end, the due date is November 15) This Circular
makes this 45-day deadline a permanent annual requirement for all executive agencies and
Government Corporations regardless of fiscal year.”

The Circular also states, “The content of MD&A is the responsibility of management. Its
preparation at a minimum should be a joint effort of the Chief Financial Officer (CFO) office,
the Performance Improvement Officer (PIO) office, and program offices, and offices responsible
for performance reporting. Management has considerable discretion with respect to the
presentation, subject to the required components and the pervasive requirement that the MD&A
not be misleading. The MD&A provides management with a vehicle for communicating insights
about the entity, increasing the understandability of financial information, and providing
information about the entity, its operations, service levels, successes, challenges, and future. The
MD&A is an integral part of the annual PAR or AFR and should be regarded as required
supplementary information (RSI).”

There is unclear accountability among the CDFI Fund’s management and staff regarding roles
and responsibilities over the PAR.

The CDFI Fund may have a breakdown of financial reporting controls as completion and
submission of its financial statements on a timely basis is a critical component of an effective
control structure. Also, the Fund may not be able to meet its statutory reporting deadline.

Recommendations:

We recommend that management of the CDFI Fund:

1   Establish a pro forma process to be completed at an interim period for the MD&A sections
    of the PAR.
2   Establish formal roles and responsibilities together with completion milestones for CDFI
    Fund management and staff involved in formation its financial statements, including the
    MD&A.

Management’s Response:
The CDFI Fund does not concur with this finding. It is inaccurate to state that there is unclear
accountability of roles and responsibilities for the preparation of the CDFI Fund's Management
Discussion and Analysis (MD&A). In compliance with the cited sections of Circular A-136, the
                                                                                    Appendix A




MD&A was prepared through a joint effort of CDFI Fund management (in consultation and
coordination with the Office of Financial Management), the Office of Financial Strategies &
Research, and all appropriate program offices, and submitted to the auditors on November 5,
2010.

Please note that certain of the program data that was included in the final MD&A was not
available until mid-October, just after the fiscal year reporting deadline for CDFI Fund
awardees. Once the awardee reporting data was received, it was necessary to conduct data
quality checks. This timing information was communicated to the auditors as justification for the
delay. The draft submitted to the auditors on October 29 was in substantially complete form: at
that time, the auditors were informed that the document needed final fact-checking, clearance
and insertion of final financial management notes.

The recommendations have already been put into place. In addition, now that the transition of
the CDFI Fund's financial management functions to the Office of Financial Management is
complete, audit process management responsibilities (including serving as audit point of contact)
have shifted, which will impact next fiscal year's audit processes.
